July 11, 2008

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Management of Contract Changes – Hallmark Custom
         Marketing, Inc. (Report Number CA-AR-08-007)

This report presents the results of our audit of the management of contract changes for
the contract with Hallmark Custom Marketing, Inc.1 for ReadyPost2 shipping supplies
(Project Number 08YG003CA000). Our objective was to determine whether there were
unnecessary or inappropriate increased costs due to contract changes to the Postal
Service’s contract with Hallmark Custom Marketing, Inc. for ReadyPost shipping
supplies. The audit was self-initiated as part of a review of U.S. Postal Service’s
management of contract changes and addresses the agency’s contracting process
operational risk. The Postal Service reviewed a discussion draft of this report and had
no comments or concerns. Click here to go to the Appendix for additional information
about this audit.

Conclusion

We did not identify any unnecessary or inappropriate increased costs to the Postal
Service due to changes in the contract with Hallmark Custom Marketing, Inc. for
ReadyPost shipping supplies. Contract modifications were not the result of poor
contract planning or inappropriate concessions to the contractor. The significant
increase in contract value over the life of the contract was mainly to cover purchases
necessitated by increased sales of ReadyPost shipping supplies. Therefore, we are not
making any recommendations.



1
  The contract (Contract Number 412735-00-B-1317) was originally awarded to The Ensemble Company, a
subsidiary of Hallmark Cards, Inc. Later, The Ensemble Company was dissolved and its key businesses were
integrated into the Hallmark Marketing Corporation. Subsequently, the contract was transferred to Hallmark Custom
Marketing, Inc. through a novation agreement.
2
  The ReadyPost program is designed to increase the revenue contribution of mailing services by providing
convenient shipping supplies to customers.
Management of Contract Changes – Hallmark Custom Marketing, Inc.              CA-AR-08-007




We did note that, when exercising the last 2-year contract option on July 1, 2007, the
Postal Service restructured the pricing of the contract to break out transportation and
program support costs from the overall unit cost. Management expected the
restructuring to result in cost savings of $8 to $10 million per year for the remaining
2 years of the contract. However, Postal Service personnel stated they would not
perform the data analysis necessary to determine whether the cost savings are being
achieved until July 2008.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: H. Glen Walker
    Mark P. Nepi
    Caroline Z. Boyle
    Susan A. Witt
    Katherine S. Banks




                                                  2
Management of Contract Changes – Hallmark Custom Marketing, Inc.                CA-AR-08-007




                         APPENDIX: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service awarded the ReadyPost contract on June 26, 2000, to standardize a
range of Postal Service-branded retail packaging and mailing supplies for resale at its
retail sites. This contract is fixed priced with economic price adjustments and was for
an initial term of 3 years with options to renew for three 2-year terms for up to a total of
9 years. The initial contract was for xxxxxxxxxxx; subsequently, there have been 78
contract modifications and the contract is currently valued at xxxxxxxxxxxxxx. The
significant increase in contract value over the life of the contract was mainly to cover
purchases necessitated by increased sales of ReadyPost shipping supplies. It is
expected to generate an estimated $642 million in gross revenue through fiscal year
2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether there were unnecessary or inappropriate
increased costs due to contract changes to the Postal Service’s contract with Hallmark
Custom Marketing, Inc. for ReadyPost shipping supplies. Specifically, we reviewed
contract modifications to determine the reasons for changing the contract and
determined if those changes were necessitated by poor contract planning or
inappropriate concessions to contractors.

We reviewed and documented pertinent Supply Management policies and procedures
regarding contract changes. For the ReadyPost contract, we obtained and reviewed
contract files including the basic contract, contract modifications, funding and
administrative changes, revenue and expense data, contract approvals and authority,
and the exercise of options. We interviewed key contracting personnel, including the
contracting officer.

We conducted this performance audit from May through July 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on July 1, 2008, and included their
comments where appropriate. We did not rely on computer generated data to support
our audit findings.




                                                  3
Management of Contract Changes – Hallmark Custom Marketing, Inc.                 CA-AR-08-007




PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                                  4
